VIRGINIA:

ot

J n tIie S up1U!l1re eowtt VVtfJinia fWd at tIie S up1U!l1re eowtt 9Juilding in tIie
9lidinwnd on fl'tidmJ tIie 16t1i dmJ ~t, 2019.

eihJ ot

ot

Appellant,

Raheem Chabezz Johnson,
against

Record No. 181631
Circuit Court No. CL18-284

Jeffery Kiser, Warden,
Red Onion State Prison,

Appellee.

From the Circuit Court of the City of Lynchburg

Upon review of the record in this case and consideration of the argument
submitted in support of the granting of an appeal, the Court is of the opinion there is no
reversible error in the judgment complained of. Accordingly, the Court refuses the petition for
appeal.

A Copy,
Teste:

By:

